AAAAAAAAAAAAAAA




                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audit Services




  Audit Report

 Contractor Post-Retirement Health
 Benefits at the Oak Ridge Reservation




 DOE/IG-0690                                May 2005
REPORT ON CONTRACTOR POST-RETIREMENT HEALTH BENEFITS
AT THE OAK RIDGE RESERVATION



TABLE OF
CONTENTS


  Corporate Service Credit

  Details of Finding                                   1

  Recommendations and Comments                         3


  Appendices

  1. Objective, Scope, and Methodology                 5

  2. Prior Audit Reports                               7

  3. Management Comments                               8
Corporate Service Credit

Eligibility         The Department of Energy (Department), including the National
Requirements        Nuclear Security Administration (NNSA), was inconsistent in its
                    reimbursement for contractor post-retirement health benefit costs.
                    Further, as a result of these inconsistencies, contractors were
                    reimbursed for unreasonable costs. Specifically, while NNSA
                    reimbursed BWXT Y-12, LLC (BWXT Y-12) for the
                    post-retirement health benefits of corporate transferees, the Oak
                    Ridge Operations Office (Operations Office) disallowed similar
                    costs from the Bechtel Jacobs Company, LLC (Bechtel Jacobs)
                    contract for the East Tennessee Technology Park and denied a
                    request from UT-Battelle, LLC (UT-Battelle), to provide similar
                    benefits for the employees of the Oak Ridge National Laboratory.

                    BWXT Y-12 employees are able to use their corporate years-of-
                    service credits when eligibility for post-retirement health benefits
                    is determined. According to the BWXT Y-12 contract,
                    "…employees transferring directly from a Bechtel or BWXT
                    affiliated company will retain the continuous or credited service
                    date recognized by the affiliated company from which they transfer
                    for the purpose of vacation eligibility, and savings plan, pension
                    plan, retiree medical plan vesting, and eligibility for early
                    retirement."

                    With the current service credit clause, a 50-year old
                    BWX Technologies, Inc. (BWXT Corporate) transferee with 10
                    years of corporate service could transfer to BWXT Y-12 and retire
                    the next day with full post-retirement health benefits funded by the
                    NNSA. However, an individual who has spent 9 years exclusively
                    at the Y-12 site would not be eligible for post-retirement health
                    benefits funded by the NNSA. Since November 2000, 192
                    corporate transfers have been brought onto the Y-12 site. Bechtel
                    National, Inc. (Bechtel National) has transferred 124 employees
                    and BWXT Corporate, 68. We found that nearly 25 percent of
                    these employees transferred with more than 10 years of corporate
                    service, therefore they were immediately eligible to receive
                    post-retirement health benefits regardless of the time worked at
                    Y-12. For example:

                           •   One executive, who assisted in the Y-12 transition from
                               Lockheed Martin Energy Systems, Inc. to BWXT Y-12,
                               had transferred to Y-12 from BWXT Corporate. This
                               individual was employed at Y-12 for about 3 years.
                               However, since he had more than 10 years of corporate
                               service, he was eligible for NNSA funded post-retirement
                               health benefits the day he transferred to Y-12. He took



Page 1                                                              Details of Finding
                  an early retirement and the NNSA is now responsible for
                  post-retirement health benefits that he would not have
                  received had he stayed with the parent company.

              •   Another senior executive, a BWXT Corporate career
                  employee, retired from the Y-12 site in 2003 after 4 years
                  of service with BWXT Y-12. Although less than 10
                  percent of his career was spent working at Y-12 the
                  service credit clause requires the NNSA to pay 100
                  percent of the employer's portion of his post-retirement
                  health benefits.

         Bechtel Jacobs' employees who transfer from the corporate offices
         to the East Tennessee Technology Park cannot use their corporate
         service credit towards eligibility for Department funded
         post-retirement health benefits. In December 2002, after
         identifying the inconsistencies in the application of benefits, the
         Operations Office requested an opinion from the Department's
         Contractor Human Resource Management Division (Contractor
         Human Resources) on the reasonableness of allowing transferees
         to include service credits for non-Government work when
         determining eligibility for post-retirement medical benefits.
         Contractor Human Resources determined that the practice of
         transferring service credits and the associated liabilities was not
         reasonable when such liabilities are not directly attributed to
         services performed on Department contracts. In addition, BWXT
         Corporate does not offer any post-retirement medical benefits to its
         corporate employees and Bechtel National only provides a select
         group of corporate employees a small reimbursement towards the
         premium for post-retirement medical benefits. Therefore the costs
         incurred by NNSA to provide these benefits are unreasonable.

         The Operations Office subsequently declared the costs associated
         with corporate service credits unallowable for Bechtel Jacobs and
         did not allow the service credit clause to be added to the
         UT-Battelle contract for the management of the Oak Ridge
         National Laboratory. In 2004, the Operations Office reported that
         it had ceased the practice of reimbursing post-retirement medical
         benefits for individuals who retire with less than 10 years of
         Department service. The Operations Office is now in the process
         of recovering the unallowable costs paid as a result of the previous
         method of determining eligibility for post-retirement health
         benefits.




Page 2                                                    Details of Finding
Corporate Process   The variations in benefit allowability existed because neither the
                    Department nor NNSA have established a consistent corporate
                    process to address the reasonableness of the service credit clauses
                    throughout the complex and to prevent their recurrence in future
                    contracts. In addition, the determination made by the Contractor
                    Human Resources division of the Department has not been
                    implemented as policy complex-wide.

                    Officials from NNSA's Y-12 Site Office indicated that it was their
                    intention to review BWXT Y-12's service credit clause during
                    future contracting actions; however, they did not commit to
                    removing the clause and believed that the benefit commitments
                    made at contract inception should continue to be honored.
                    Although the Operations Office agreed that the company service
                    credit for corporate transferees could be kept, it stated the benefit
                    should be at corporate expense and not funded by the Department
                    or NNSA.

Cost Impacts        If the variations are not addressed, NNSA will incur about
                    $460,000 for 9 transferees who have already retired from BWXT
                    Y-12 and may pay more than $7 million for the remaining 144
                    transferees. Although actuarial estimates project a post-retirement
                    medical cost of about $2,000 per retiree per year, during 2004 the
                    average actual medical costs were $8,000 per retiree.
                    Consequently, the total effect could be significantly higher.
                    During our review, we found additional NNSA contracts with
                    similar corporate service credit eligibility clauses. Contractors at
                    the Nevada Test Site, Sandia National Laboratories, and the Pantex
                    Plant allow transferees to include time served with the parent
                    companies and affiliates when determining eligibility for
                    post-retirement medical benefits.

RECOMMENDATIONS     We recommend that the Administrator, NNSA and the
                    Department's Director, Office of Management, Budget and
                    Evaluation establish and implement a consistent corporate process
                    to ensure that eligibility for contractor post-retirement health
                    benefits is based solely on work performed for Department
                    contracts. We also recommend that the Administrator, NNSA
                    direct the site offices to determine the reasonableness of costs
                    incurred for corporate transferee post-retirement health benefits
                    under existing contracts.




Page 3                                           Recommendations and Comments
MANAGEMENT   Management concurred with our recommendation to establish and
REACTION     implement a consistent corporate process for contractor post-
             retirement health benefits. Management stated that the Department
             established a Contractor Pension and Post Retirement Policy
             Council in March 2005 that would address the finding discussed in
             this report and ensure that inconsistencies are eliminated.
             Additionally, NNSA contracts will be modified at the earliest
             opportunity to ensure that non-Department corporate service credit
             for transfers does not count toward eligibility for post-retirement
             health benefits. All NNSA contracts will be modified by the end
             of Fiscal Year 2009.

             Management also agreed to review the reasonableness of costs
             incurred for retirement health benefits provided for BWXT Y-12
             employees. Management noted that allowing corporate transferees
             to retain their credited service date for purposes of determining
             benefits was a necessary incentive to attract new corporate
             managers and employees who were necessary to effect the cultural
             change sought by NNSA at the Y-12 complex.


AUDITOR      Management's comments are responsive to our recommendations.
COMMENTS     While we recognize that Management offered credit for corporate
             service in determining eligibility for health benefits as an
             inducement to transferees in order to affect a cultural change, a
             final determination about the reasonableness of the resulting costs
             should be based on whether they are commensurate with the
             relative benefits that the Government actually obtained in
             achieving its objectives.




Page 4                                   Recommendations and Comments
Appendix 1


OBJECTIVE     The objective of the audit was to determine whether the eligibility
              requirements for post-retirement medical benefits at the
              Reservation were consistent and reasonable.

SCOPE         We performed the audit from October 2004 though May 2005 at
              Department Headquarters in Washington, DC; and the Oak Ridge
              Operations Office, Y-12 Site Office, and Y-12 National Security
              Complex in Oak Ridge, Tennessee. The scope of the audit
              included the Department's post-retirement health benefits at the
              Department and NNSA.

METHODOLOGY   To accomplish the audit objective, we:

                 •   Met with Headquarters procurement and benefits
                     personnel;

                 •   Discussed benefits with Oak Ridge Contractor Human
                     Resources;

                 •   Calculated estimated post-retirement health benefit
                     liabilities;

                 •   Analyzed Oak Ridge Reservation prime contracts and
                     modifications;

                 •   Reviewed required Federal Accounting Standards
                     submissions;

                 •   Evaluated procurement controls at the Oak Ridge
                     Reservation; and,

                 •   Reviewed applicable Federal regulations, Departmental
                     Orders, and implemented procedures and practices.

              We conducted the audit according to generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective.
              Because our review was limited, it would not necessarily have
              disclosed all internal control deficiencies that may have existed at
              the time of our audit. We did not rely on computer-processed data
              to accomplish our audit objective.




Page 5                                   Objective, Scope, and Methodology
Appendix 1 (continued)

                    Finally, we assessed the Department's compliance with the
                    Government Performance and Results Act of 1993. The
                    Department did not establish specific performance measures
                    related to contractor post-retirement medical benefits.

                    Management waived the exit conference.




Page 6                                        Objective, Scope, and Methodology
Appendix 2

                                PRIOR AUDIT REPORTS


  •   Follow-up Audit of Health Benefit Costs at the Department's Management and Operating
      Contractors (DOE/IG-0470, May 2000) The Department's actions in response to the
      prior audit have significantly reduced employee health benefit costs. Several contractors
      implemented actions that substantially reduced overall costs while maintaining
      competitive benefit programs for employees. However, despite these improvements, the
      Department continued to pay substantially more than competitive market benchmarks per
      capita for employee health benefits in CY 1998. This occurred because the Department
      did not require contractors to bring health benefit plan costs in line with competitive
      market benchmarks and industry practices. Had the Department required the three
      contractors we examined to bring health benefit plan costs in line with competitive
      market benchmarks and industry practices, the Department could have saved $33 million
      in employee health benefit costs in CY 1998.

  •   Westinghouse Savannah River Company's Health Benefit Plan (ER-B-99-03, February
      1999) This review found that a portion of Westinghouse Savannah River Company's
      (Westinghouse) 1997 and 1998 health benefit costs were unnecessary and unreasonable.
      Westinghouse instructed Blue Cross Blue Shield of South Carolina (BC/BS) to pay health
      care providers in the Aiken area at higher rates than BC/BS paid its other preferred
      providers in South Carolina. The condition existed because Westinghouse did not want
      its employees to be inconvenienced and it wanted to protect the Aiken Regional Medical
      Centers from financial difficulty.

  •   Audit of Health Benefit Costs at the Department's Management and Operating
      Contractors (DOE/IG-0350, June 1994) We found that the Department's policies and
      procedures did not ensure that M&O contractors paid their fair share of health benefit
      costs. We audited $95 million in health benefit costs paid to six M&O contractors and
      determined that $15.4 million of these costs were excessive when compared to those of
      other firms as established by a national survey.

  •   Department of Energy: Certain Postretirement Benefits for Contractor Employees Are
      Unfunded and Program Oversight Could Be Improved (GAO-04-539, April 2004) As of
      September 30, 2003, the Department reported an estimated $13.4 billion in unfunded
      contractor postretirement health and pension benefits. The approval and monitoring of
      Department contractor employee pension and postretirement health benefits is primarily
      the responsibility of Department contracting officers, who administer contracts at
      individual contractor locations. Management does not systematically review information
      developed at individual contractor locations to identify best practices or areas where
      benefit comparisons do not adhere to agency requirements or guidance. Developing and
      disseminating this information agency-wide would enhance the Department's oversight of
      contractor employee benefit costs.




Page 7                                                                   Prior Audit Reports
Appendix 3




Page 8       Management Comments
Appendix 3 (continued)




Page 9                   Management Comments
Appendix 3 (continued)




Page 10                  Management Comments
                                                                    IG Report No. DOE/IG-0690

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
